                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

      Case Number: A05090069                                                       Page 1of 1


          We learned in September 2005 about a n allegation of plagiarism in a proposal
          submitted to NSF. The proposal1 listed a PI and two co-PIS, all a t the same
          University.2 We referred the allegation to the subjects' university. The University
          concluded one of the co-PIs3 was responsible for the copied text in the proposal, but
          held all three accountable. I t required a committee to review for plagiarism all
          submissions of the three for one year.

          We agreed with the University's conclusions and recommended NSF make a finding
          of research misconduct against the co-PI for plagiarism. NSF agreed and took the
          additional recommended action of requiring the subject to certify for 1year that any
          proposals submitted by the subject contain no plagiarized, falsified, or fabricated
          material. NSF required the co-PI to take a course on research ethics and
          plagiarism.

111       Accordingly, this case is closed. This memorandum, the Deputy Director's
          adjudication, and our Report of Investigation constitute the closeout for this case.




               1 (footnote  redacted)
                  (footnote redacted).
              3   (footnote redacted).



  NSF OIG Form 2 (11102)
                         National Science.   ,   .




    Office of Inspector General




                   Confidential
              Report of Investigation
             Case Number A05090069



CONFIDENTIAL

NSF OIG FORM2 2 (1103)
                 ~
                                   E x e c u t i v e Summarv
Allegation:     Plagiarism.


OIG Inquiry: A proposal submitted to NSF by a PI and two co-PIS contained text
             copied from multiple sources. We referred the allegation to the
             subjects' home institution.
University
Investigation
and Action: The University concluded a preponderance of evidence proved one
              of the co-PIS recklessly plagiarized, and the P I and other co-PI were
              negligent in their review of the proposal. All accepted
              responsibility for their actions.
                A certified committee of researchers will review all submissions
                from the PI and both co-PIS for external funding for a period of 1
                year.
OIG
Assessment:     We concur with the University that the co-PI plagiarized, but
                conclude he did so knowingly, not recklessly.
                T h e Act: The co-PI copied approximately 47 lines of text verbatim
                from 6 sources, without quotation marks or appropriate citation
                into the proposal. The co-PI admitted to copying from the source
                documents.
                Intent: Given the co-PI'S admission, we conclude the co-PI acted
                knowingly.
                S t a n d a r d of Proof: The University and OIG used a preponderance
                of the evidence to reach their conclusions.
                Significant D e p a r t u r e : We concur with the University in
                concluding the co-PI'S copying represents a significant departure
                from community standards.
                P a t t e r n : None.


OIG
Recommends: Send the co-PI a letter of reprimand informing him NSF is making
            a finding of research misconduct;
                Require certification (a copy of University's certification) for 1year;
                Require assurance for 1year;
                Require certification of attending an ethics class.



                                                                                   Pg. 1
                                               OIG Inquiry
    During the pe'er review of an NSF proposa1,l a n allegation was raised that the
    proposal contained plagiarized text. We initiated a n inquiry and analyzed the
    proposal with our plagiarism software and identified approximately 47 lines of
    verbatim text copied from 6 sources.
    The proposal listed a PI (Subject A2) and two co-PIS (Subject B3 and Subject C4), all
    from the University. We wrote each subject asking for their perspective on this
    allegation.5 The subjects responded jointly that they were taking the allegation
    seriously and had referred the matter to the University.6 They said some of the
    copied text was "probably appropriate a s . . . [it] appear[s] to be strongly in the
    'public domain'."7 However, the subjects also acknowledged "the inadequacy of
    citations of previous research in the 'literature review7."8 They wrote the questioned
    text was prepared by Subject C, a research associate, but Subject A and Subject B
    conceded they did not provide enough supervision during the preparation of the
    proposal.
    As the subjects had already informed the University, and the University initiated a
    formal review process, we referred the allegation to the University for investigation
    while deferring our 0wn.9


                                      The Universitv's Actions
    The University charged a Committee to conduct a n inquiry to assess the allegation.
'
    The Committee collected documentation of the subjects' communications with OIG,
    including the proposal and alleeWdsource documents, and interviewed all three
    subjects. The Committee wrote a report summarizing its investigation and
    findings. 10
    I n the interviews with the Committee, all three subjects "agreed that parts of the
    literature review in the NSF [proposal] were not correctly cited."ll Subject C took
    responsibility for the copied text, and admitted he used full sentences from other
    sources. He said he planned to re-write the text, but r a n out of time, and did not
    realize this was inappropriate. Subject A took responsibility for his failure to
    carefully review the proposal. Subject B said he did not read the entire proposal.


    1 (footnote redacted). The proposal and its alleged source documents are Appendix (A).
    2 (footnote redacted).
    3 (footnote redacted).
    4 (footnote redacted).
    5 The letters to the three subjects were the same, a n example of which is Appendix (B).
    6 Their response is Appendix (C).
    7 Appendix (C), p . 1.
    8 Id.
    9 Our referral letter is Appendix (D).
    10 The Committee's report is Attachment (E).
    11 Attachment (E), p. 2.




                                                                                               Pg. 2
    The subjects, in support of their belief that some of the text was in the public
    domain, referenced a CDC12 website acknowledging "'materials produced by Federal
    agencies are in the public domain and may be reproduced without permission.'"l3
    The Committee cogently articulated its conclusion that, "it is not apparent to us
    that either the concept of public domain or the idea that content can be reproduced
    without permission implies that text passages written by another person can be
    reproduced without attribution."l4 The Committee noted the subjects "do not deny
    this behavior satisfies the definition of misconduct," and concluded "this is a clear
    case of plagiarism."l5 The Committee recommended the matter be referred to the
    institution's standing research misconduct committee.16
    The Committee also acknowledged "all parties are attempting to take some
    corrective action in response to this incident" and suggested one alternate course of
    action would be for the University to "require for period of a year future grant
    applications from the three investigators to be certified by a committee of
.   researchers."l7
    The University's adjudicator (the Chancellor)l8 reviewed-the Committee's report
    and met with the subjects.19 Based on the report and additional information the
    subjects offered during their interview with the Chancellor, he determined the act
    constituted plagiarism and all three subjects were "responsible for the content of the
    grant proposal."20 In determining the appropriate adjudicative action, the
    Chancellor considered the fact that the subjects had taken responsibility for their
    actions and indicated a "willingness,to accept the proposed corrective action of the
    Inquiry Committee."21 Therefore, the Chancellor determined for a period of one
    year any future grant proposals must be reviewed by a certified committee of
    researchers.22 This adjudicatioLapplied to all three subjects.
                                               OIG's Assessment
    We accept the University's report as accurate and complete in collecting the facts,
    and we conclude the University followed reasonable procedures in its investigation.
    We found the Committee was thoughtful in assessing the available evidence, but
    did not clearly address several factors we outlined in our referral letter. So we asked
    the University to clarify its conclusions.23

    l2   Centers for Disease Control and Prevention.
    13 Attachment    (E), p. 2.
    14 Id.
    15 Id.
    16 Id.
    17 Ibid.,p. 3.
    '8 (footnote redacted).
    19 The University's cover letter, Chancellor's adjukcation, and the subjects' responses are Appendix
    (F).
    20 Appendix      (F), pg. 3-4
    21   Ibid.p. 3
         Appendix (F), p. 4.
    23   Our letter to the University and its clarifi'cation are Appendix (G).
    The University clarified that a preponderance of evidenced proved Subject C
    recklessly committed plagiarism and that his actions were a significant departure
    from accepted practice. It concluded Subject C acted recklessly "because his act was
    a serious deviation from the way a reasonable person would have acted under
    similar circumstances."24 I t noted that although Subject C professed ignorance
    about plagiarism, the University's policy, which he is required to follow, clearly
'
    spells out his action is misconduct.25 The University concluded a preponderance of
    evidence proved Subject A and Subject B acted negligently in not adequately
    reviewing the proposal and Subject C's writing prior to submission of the proposal.
    We admire the University's high academic standards by holding Subjects A and B
    accountable for the contents of their proposal. We concur with the University's
    assessment of Subject A and Subject B. We agree their intent was negligent
    (careless), which, according to our regulation, does not meet the threshold for a
    finding of research misconduct.
    We disagree, however, with its assessment of Subject C's intent. Subject C
    admitted to copying and he did so with the intent of replir-asing the text but ran out
    of time. Therefore we conclude he acted knowingly when he was copying. We think
    other factors raised during the University proceedings, particularly his
    inexperience, more properly mitigate the recommended actions rather than the
    intent.


    Subject C copied approximately 47 lines of text verbatim from 6 sources, without
    quotation marks or appropriate citation into the proposal. Subject C admitted to
    copying text from the source dociments. The University Committee determined
    this met the definition of          and the University Chancellor agreed. We
    concur with the University's assessment.


    As noted in the University report, Subject C acknowledged he "pulled full sentences
    from other texts."26 He said he planed to re-phrase the text, but he ran out of time.
    Although the University determined his actions to be reckless, we conclude the
    preponderance of the evidence shows Subject c'knowingly copied text.


    We concur with the University that a preponderance of evidence proves Subject C's
    action is a significant departure from accepted practices, or as the University
    described it, his actions significantly departed from what a reasonable person would
    do in similar circumstances. We concluded he acted knowingly. Thus, we conclude
    Subject C's action is plagiarism and constitutes research misconduct.

    24 Appendix (G), p. 3.
    25 The policy gives examples of misconduct, one of which-"cutting and pasting text from the web
    without quotation marks or proper citation"-is representative of Subject C's action
    26 Appendix (E), p. 2.




                                                                                                  Pg. 4
                             OIG's Recommended Disposition
I n deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; whether it was an isolated event or part of a pattern; its
impact on the research record; and other relevant circumstances.
                                                Seriousness
Subject C copied approximately 47 lines of text from 6 sources. Although this is not
the most egregious case seen by our office, the acts are sufficiently serious to
warrant action to protect the Federal interest.
                                                   Pattern
.Neither our office, nor the University, uncovered evidence of a pattern of plagiarism
in the materials reviewed. As a result ;f this allegation, Subject C's dissertation
advisor reviewed'his dissertation and found no evidence of plagiarism.27
                                    Impact o n the Research Record
The plagiarism occurred within a declined proposal, so there was minimal harm to
the research record.
                                            Mitigating Factors
As noted earlier, all subjects accepted responsibility for the proposal-Subject C for
the plagiarized text, and Subject A and Subject B for inadequate review. The
committee also noted Subject C's relative inexperience in preparing proposals.
                                       ,. Recommendations
We recommend NSF send a letter of reprimand to Subject C informing him he has
been found to have committed plagiarism, hence research misconduct.28 Since
Subject C will have his grant proposals certified by a University-appointed
Committee of Researchers (COR) for 1year, we recommend NSF require Subject C
to provide to OIG a copy of the COR certification for 1year,29 I n addition, we
recommend NSF require Subject C to provide to OIG a certification that nothing he
submits to NSF for a period of 1year violates its research misconduct regulation.30
Finally, as noted by the committee, Subject C does not have a lot of experience i n
preparing proposals. Accordingly, we recommend NSF require Subject C to take an
ethics class to better learn about ethical issues and scholarly standards regardmg
plagiarism. Subject C should provide documentation to OIG that he has attended
the ethics class.
                                       Subiect's Response
Subject C did not respond t o the draft report.
                       -




27 Ibid. p. 3.
28 This is a Group I action; 45 CFR 5 689.3(a)(l)(i).
29 This is a Group I1 action; 45 CFR 5 689.3 (a)(Z)(ii).
30 This is similar to a Group I1 action; 45 CFR 5 689.3 (a)(Z).




                                                                                  Pg. 5
                                                                                       ,   .
                                   NATIONALSCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230

                                            AUG 1 0 2007


       OFFICE OF THE
      DEPUTY .DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Dr.




         Re:     Notice of Research Misconduci Determination

Dear Dr.

        In 2005, you served as a co-~I'ona proposal submitted to the National Science
Foundation ("NSF") entitled, "                                                          " As
documented in the attached Investigative Report prepared by NSF's O f i c e o f Inspector General
("OIG"), this proposal contained plagiarized text.

Research Misconduct and Proposed Sanctions
        Under NSFYsregulations, "research misconduct" is defined as '?fabrication, falsification,
or plagiarism in proposing or performing research hnded by IVSF .. ." 45 CFR 5 689.1,(a). -NSF
defines "plagiarism" as "the approprjation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR $689.l(a)(3). . A finding of research misconduct
requires that:

          (1) There be a significant departure from accepted practices of the relevant research
              community; and
          (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
              and
          (3) The allegation be proven by a preponderance of evidence.

45 CFR 5 689.2(c).
        Your proposal contained verbatim and paraphrased text fiom several source documents.
You conceded that you were the primary author of the "literature review" sections of the
proposal - the sections that contained the plagiarized text. By submitting proposals to NSF that
copy the ideas or words of another without adequate attribution, as described in the OIG
Investigative Report, you misrepresented someone else's work as your own. In addition, you
failed to properly acknowledge or credit the authors of the source documents in his proposals.
Your conduct unquestionably constitutes plagiarism. I therefore conclude that your actions meet
the definition of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR $ 689.2(c). After
reviewing the Investigative Report and the University Committee findings, NSF has determined
that, based on a preponderance of the evidence, your plagiarism was committed knowingly and
constituted a significant departure fiom accepted practices of the relevant research community. I
 am, therefore, issuing a finding of research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, 11, and LII) that can be
taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
requiring that an institution or individual obtain special prior approval of particular activities
from NSF; and requiring that an institutional representative certify as to the accuracy of reports
or certifications of compliance with particular requirements. ~ ~ ' C F  §689.3(a)(l).
                                                                           R             Group I1
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for fimding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group I11 actions include suspension or termination o f awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension fiom participation in NSF programs. 45 CFR $ 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our determination that it was knowing,as well as
our determination that it was an isolated incident. I have also considered the fact that your
misconduct did not have a significant impact on the research record, your willingness to accept
responsibility for your actions, and the contrition that you demonstrated during the course of the
investigative process. I have also considered other relevant circumstances. 45 CFR § 689.3 (b).

        In light of the foregoing, I am requiring that: (1) in accordance with the University's
action, you provide to the OIG a copy of each certification issued by the University's Committee
of Researchers for any grant proposal submitted to NSF; (2) for any proposal that you submit to
NSF fiom the date of this letter until August 1,2008, you provide written assurance to the OIG
that your proposal does not contain plagiarized, falsified, or fabricated material; and (3) by
December 3 1,2007, you take a course on research ethics and plagiarism, and submit proof that
you have done so to the OIG. Certifications and assurances should be sent to the OIG at the
National Science Foundation, 4201 Wilson Boulevard, Arlington, Virginia 22230.
Procedures Governinn Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR §689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call             Assistant General Counsel, at (703)
292-8060.



                                                    Sincerely,



                                                    Kathie L. Olsen
                                                    Deputy Director


~nclosures
- Investigative Report
- 45 C.F.R. Part 689
